 Office of Inspector General
      Audit Report


OPPORTUNITIES EXIST TO STRENGTHEN
 FHWA’S COORDINATION, GUIDANCE,
   AND OVERSIGHT OF THE TRIBAL
    TRANSPORTATION PROGRAM
       Federal Highway Administration

        Report Number: MH-2014-003
        Date Issued: October 30, 2013
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Opportunities Exist To Strengthen                                      Date:    October 30, 2013
           FHWA’s Coordination, Guidance, and Oversight
           of the Tribal Transportation Program
           Report No. MH-2014-003

  From:                                                                                Reply to
                                                                                       Attn. of:   JA-40
           Joseph W. Comé
           Assistant Inspector General for Highway and
           Transit Audits

    To:    Federal Highway Administrator


           The Federal Highway Administration’s (FHWA) Tribal Transportation Program
           (TTP) 1 provides funding for safe and adequate transportation and public road
           access to, within, and through tribal reservations, tribal lands, and Alaska Native
           Villages. TTP projects range from board roads for all-terrain vehicles on the
           marshy Alaskan tundra to significant road construction. According to FHWA’s
           Office of Federal Lands Highway (FLH), over 8 billion vehicle miles are traveled
           annually on the TTP system, but more than 60 percent of its roads are unpaved and
           27 percent of its bridges are deficient. From fiscal years 2005 to 2012, the TTP
           received about $3.5 billion in congressional appropriations, including $310 million
           provided by the American Recovery and Reinvestment Act of 2009 (ARRA). FLH
           and the Department of Interior’s Bureau of Indian Affairs (BIA) jointly administer
           and oversee the TTP. Tribes enter into agreements with either FLH or BIA to
           receive funding for their tribal transportation projects and overall technical
           assistance on the program.

           We initiated this audit to assess whether FLH is (1) effectively coordinating with
           BIA to administer and manage the TTP and (2) providing adequate oversight of
           TTP projects under agreements with tribes.


           1
             TTP was formerly known as the Indian Reservation Roads program. The Moving Ahead for Progress in the 21st
           Century Act of 2012 (MAP-21), which Congress enacted during this audit, changed the name of the program. In this
           report, we use the term “Tribal Transportation Program” or “TTP” to describe activities performed under the former
           Indian Reservation Roads program.
                                                                                                                 2


To perform our work, we reviewed laws, regulations, and guidance pertaining to
the TTP and interviewed program officials from FLH and BIA. We selected a
statistical sample of 10 tribes from across the country with FLH agreements. We
conducted site visits to meet with tribal officials from these tribes and to review
documentation for 31 projects that received TTP and ARRA funding. Exhibit A
provides more details on our scope and methodology. We conducted our work in
accordance with generally accepted Government auditing standards.

RESULTS IN BRIEF
FLH and BIA routinely coordinate in key TTP areas, such as conducting reviews
of tribal transportation programs. However, FLH and BIA have opportunities to
improve coordination on National Environmental Policy Act (NEPA) approvals 2
and final acceptance of TTP projects. The existing agreements between FLH and
BIA do not reconcile the two Agencies’ different processes and requirements for
NEPA approvals or reflect FLH’s current role in assisting tribes. For example,
FLH and BIA have different criteria for NEPA processes, which results in
inconsistencies across the program when tribes acquire right-of-way3 for
construction projects. The agreements also do not address coordination between
FLH and BIA on final project acceptance. BIA retains responsibility for project
acceptance on BIA-owned lands or lands held in trust—even when a tribe has an
agreement with FLH. In 4 of the 12 projects we reviewed on lands owned or held
in trust by BIA, tribes did not receive project acceptance letters from BIA—
indicating a lack of coordination between FLH and BIA to ensure tribes receive
timely letters. Without project acceptance letters, tribes run the risk that BIA may
require further changes to a project, which could increase project costs and cause
schedule delays. Updated interagency agreements would clarify the
responsibilities of each agency and help address coordination challenges between
FLH and BIA.

Although FLH has developed some processes for reviewing the tribes’
management of transportation projects, its oversight is not based on sufficient data
on tribes’ program risks and needs. We requested project and funding information
for all completed projects and projects under construction for the tribes in our
sample, but FLH did not provide accurate data for 7 out of the 10 tribes. For
example, FLH provided information on projects that were not constructed,
multiple entries for the same projects, and projects that were not funded by the
TTP. Sufficient data on tribal transportation programs is important because it
enables FLH to maintain effective oversight of the TTP as FLH accepts new tribes

2
  NEPA requires Federal agencies to consider the potential environmental consequences of their project proposals,
document the analysis, and make this information available to the public for comment prior to implementation.
3
  Right-of-way refers to real property and rights therein used for the construction, operation, or maintenance of a
transportation or related facility.
                                                                                3


and its workload increases. Since May 2012, FLH has signed agreements with five
additional tribes. Without critical program and project information, FLH is
hindered in allocating its staffing resources and targeting its oversight efforts
where they are needed most. In addition, the TTP is governed by an outdated
regulation and unclear guidance in some key areas on how to implement that
regulation, such as allowable uses of funds. For example, several of the tribes we
visited were unclear on whether TTP funds could be used to purchase construction
equipment and pay for certain legal fees. As a result, it can be difficult for FLH
and tribes to clearly understand and comply with program requirements.
Insufficient data on program and project activities and unclear, outdated program
guidance impedes FLH’s ability to effectively advise tribes and ensure that
projects meet Federal requirements.

We are making several recommendations to improve FLH’s coordination with
BIA and its oversight of TTP projects.

BACKGROUND
There are currently 566 federally recognized tribes in the United States. Since
2005, Congress has allowed tribes that are financially stable and have adequate
financial management capability to enter into agreements with FLH to provide
Federal oversight of TTP projects and technical assistance. These agreements give
eligible tribes the authority to manage their own tribal transportation programs,
priorities, and projects, which is consistent with Federal policies that promote
tribal self-government, self-determination, and sovereignty. FLH and BIA are
jointly responsible for developing program policy and requirements. Prior to 2005,
BIA managed all tribal transportation projects, and tribes worked directly with
BIA to implement the program, while FLH provided technical assistance to the
tribes through BIA in accordance with an interagency agreement.

Tribes now have the option to enter into agreements with either FLH or BIA to
receive technical assistance to manage their own transportation projects.
Depending on which option a tribe chooses, either FLH or BIA will fund and
directly oversee the tribe’s transportation program. As of June 2013, FLH has
program agreements with 117 tribes. FLH has three divisional offices that provide
program stewardship and technical assistance for tribal projects. Tribes may also
pay FLH fees to perform related services, such as planning, research, engineering
studies, and project development.

BIA’s Division of Transportation is responsible for program policy, while BIA’s
12 regional offices manage individual projects and interact directly with tribes.
BIA retains responsibility for certain TTP project activities on BIA-owned lands
or lands held in trust. BIA is also responsible for using a statutory formula to
                                                                                                                4


determine the amount of annual TTP funding for tribes and manages the TTP
inventory, a list of all tribal transportation facilities—such as public roads and
bridges—eligible for TTP funding. BIA owns or holds in trust approximately
66 million acres of land for tribes, including tribes under agreements with FLH.
Because of BIA’s trust responsibilities, BIA must provide final acceptance for all
tribal transportation projects on these lands.

In July 2012, the Moving Ahead for Progress in the 21st Century Act of 2012
(MAP-21) authorized $900 million for the TTP over a 2-year period. It also
established a new formula that BIA uses to calculate the amount of annual funding
distributed to tribes by BIA and FLH for transportation planning, design,
construction, and maintenance activities.

OPPORTUNITIES EXIST TO IMPROVE COORDINATION
BETWEEN FLH AND BIA ON ENVIRONMENTAL REVIEW AND
PROJECT ACCEPTANCE PROCESSES
FLH coordinates with BIA in several critical program areas, including (1)
conducting program reviews, (2) distributing TTP funding to tribes, and (3)
consulting with tribal organizations. FLH coordinates with BIA to conduct two
types of program reviews. First, the Agencies conduct reviews of internal controls
and program management of tribes with FLH agreements. Second, they evaluate
BIA’s TTP administration at its 12 regional offices and provide recommendations
for process improvements. In addition, BIA supplies FLH with information on the
amount of funding to be sent to each tribe. FLH reviews this information and
distributes the funding to BIA or FLH offices for final distribution to tribes.
Finally, FLH and BIA coordinate joint meetings with tribes on program-wide TTP
issues. For example, FLH and BIA have jointly coordinated consultation meetings
with the tribes on issues such as proposed changes to the TTP regulation and the
impacts of MAP-21. FLH and BIA also participate as non-voting members of the
Tribal Transportation Program Coordinating Committee. 4

Despite many examples of coordination between FLH and BIA, we found several
coordination challenges that have not been addressed. First, FLH and BIA do not
effectively coordinate on NEPA approvals for projects on BIA-owned lands or
lands held in trust. Tribes with FLH agreements must receive NEPA approval
from FLH before acquiring right-of-way for project construction. However, BIA
retains right-of-way approval authority for projects on land it owns or holds in
trust for tribes, even if the tribe has an agreement with FLH. FLH and BIA have

4
  The Tribal Transportation Coordinating Committee consists of 12 tribal regional representatives and 2 non-voting
Federal representatives (FLH and BIA). The purpose of the committee is to provide input and recommendations to FLH
and BIA in developing TTP policies and procedures.
                                                                                                                  5


different criteria for NEPA processes for similar right-of-way conditions. These
criteria determine whether the tribe may obtain a categorical exclusion, which
declares that the project does not have a significant effect on the environment, or
whether the tribe must prepare a more resource-intensive environmental
assessment. 5 For example, BIA requires environmental assessments for existing
roads if the tribe needs to establish or amend a right-of-way, whereas FLH grants
categorical exclusions in these cases. Consequently, BIA determinations on the
required level of environmental review could reverse FLH’s decisions regarding
NEPA requirements. According to FLH and tribal officials, BIA’s requirement for
environmental assessments—in cases when FLH does not require them—results in
unnecessary effort, time, and cost for the tribes.

Further, FLH has encountered difficulties coordinating with BIA to ensure tribes
receive timely final project acceptance letters. BIA regional offices are responsible
for issuing acceptance letters for projects on lands owned or held in trust by BIA.
These letters acknowledge completion of work and release the tribe from further
project responsibilities. In addition, FLH requires these letters as part of each
project’s closeout report. However, BIA’s regional directors have inconsistent
approaches for issuing these letters. In 4 of the 12 projects we reviewed on lands
owned or held in trust by BIA, tribes did not receive project acceptance letters
from BIA. According to FLH and tribal officials, certain BIA regions are not
participating in the project closeout process for tribes with FLH agreements. One
BIA official stated that some regional staff may not want to accept projects
because they were not involved in the planning, design, and construction
processes. FLH procedures state that if BIA does not provide a letter of project
acceptance within 30 days of a tribe’s request, then the tribe should prepare a
project closeout report and inform BIA it intends to close the project. Yet, BIA
could overrule this determination at a later date, if it has not issued a project
acceptance letter. Consequently, without project acceptance letters, tribes run the
risk that BIA may require further changes to a project, which could increase
project costs and cause schedule delays. FLH has an opportunity to assist tribes by
coordinating more with BIA to expedite Federal approval processes and encourage
more consistency among BIA’s regional directors.

The coordination between FLH and BIA is inhibited by outdated interagency
agreements that do not address how FLH should coordinate with BIA regional
offices now that FLH is working directly with tribes. FLH and BIA established
policies for coordination in a Memorandum of Agreement, which was last updated
in 1992, and a Stewardship Plan, which was finalized in 1996. These key

5
  Projects granted categorical exclusions do not have a significant effect on the environment and, therefore, do not
require an environmental assessment or an environmental impact statement. An environmental assessment is prepared
when impacts of a transportation project proposal are uncertain. The assessment is intended to provide evidence and
analysis for determining whether to prepare an environmental impact statement or a finding of no significant impact.
                                                                                                                     6


documents pre-date significant legislative changes to the program. In 1998
Congress directed FLH and BIA to establish a uniform set of policies and
practices to jointly manage transportation infrastructure on tribal lands—which
they have not accomplished to date. 6 In 2005, Congress changed FLH’s role in
tribal transportation by authorizing FLH to enter into direct agreements with
tribes. 7 FLH officials stated that they are working with BIA to update the
interagency agreements, but the agreements have not been completed to date.

FLH’S TTP OVERSIGHT IS HINDERED BY INSUFFICIENT DATA
AND UNCLEAR GUIDANCE
Although FLH has developed some processes for reviewing the tribes’
management of transportation projects, its oversight approach is not based on
sufficient data on tribes’ risks and needs. Consequently, FLH is hindered in
establishing a data-driven, risk-based approach to allocating staff resources where
they are needed most. Moreover, the TTP is governed by an outdated regulation
and unclear guidance, so it can be difficult for FLH and tribes to clearly
understand and comply with program requirements. Insufficient data and unclear
program guidance impede FLH’s ability to effectively advise tribes and ensure
that projects meet Federal requirements.

Insufficient Data on Tribes’ Risks Impedes FLH’s TTP Oversight
FLH conducts oversight activities—such as occasional site visits—to review
tribes’ management of transportation projects. All 10 of the tribes in our sample
noted significant benefits in working with FLH. However, FLH’s oversight
approach is not based on sufficient data on tribes’ risks and needs, which hinders
its ability to allocate resources to tribes or program areas that need the most
attention. Specifically, we identified weaknesses related to: (1) the accuracy of the
data FLH used to monitor project and program activities, (2) insufficient review of
tribal project management capabilities when on-boarding new tribes, and (3) the
limited scope of site visits.

FLH lacks a database management system to track and monitor fundamental
project and program activities. FLH has a simple document filing system to
organize and store project documentation. This system backs up and updates
information stored on regional employees’ computers onto a server. However, the
filing system does not consolidate accurate project information or generate
management reports that FLH staff can use to determine which tribes or TTP
projects might warrant enhanced oversight. In addition, FLH had difficulty


6
    Transportation Equity Act for the 21st Century (TEA-21), P.L. 105-178.
7
    Safe, Accountable, Flexible, Efficient Transportation Equity Act: a Legacy for Users (SAFTEA-LU), P.L. 109-59.
                                                                                                                    7


compiling project status, funding, and scope information that we requested during
our review.

Specifically, FLH provided us with inaccurate TTP project information for 7 out
of the 10 tribes in our sample. We requested project and funding information for
all completed projects and projects under construction for the tribes in our sample.
However, FLH provided information on projects that were not constructed,
multiple entries for the same projects, and projects that were not funded by the
TTP. The lack of a centralized database management system runs counter to
Federal internal control standards, which state that a successful monitoring
strategy should include information that would provide routine feedback on
operations and allow an agency to promptly identify problems that can impede the
achievement of program objectives.

When on-boarding new tribes, FLH emphasizes administrative tasks, such as
signing agreements, rather than assessing tribes’ capabilities and preparing tribes
to manage their own transportation projects. FLH does not coordinate with BIA to
review a tribe’s past performance in managing federally funded projects until after
the tribe signs the program management agreement, well after it would be prudent
to fully understand the tribe’s capabilities and technical assistance needs. For
example, during on-boarding, FLH does not formally assess each tribe’s
transportation program risks, or provide systematic training on its program
requirements and the tribes’ responsibilities in managing transportation projects.
One tribe’s transportation department informed us that it was unprepared to
transition to FLH. According to tribal officials, FLH established an agreement
with tribal leadership without fully exploring the tribe’s capabilities or having
direct discussions with the transportation department. This tribe previously had a
program management agreement with BIA that provided direct Federal oversight.
However, under FLH agreements, tribes assume greater responsibility for their
transportation programs—underscoring the need for FLH to understand how to
target its oversight activities so that tribes are positioned to effectively manage
federally funded projects.

After a tribe enters into an agreement, FLH assesses the tribe’s program
management capabilities—a process of gathering data through site visits and other
communications and employing a risk matrix with categories addressing topics
such as past performance on single audits, 8 financial management, planning, and
construction capability. However, FLH’s site visit template does not contain a
standard checklist to assess tribes’ compliance with contract and construction

8
 The Single Audit Act requires State or local grantees and tribal governments to maintain a system of internal control
over Federal programs to demonstrate compliance with pertinent laws and regulations. Independent single audits are
conducted annually, in accordance with Office of Management and Budget Circular A-133, to determine whether
grantees are complying with these requirements.
                                                                                 8


management requirements. As a result, the site visit reports we reviewed lack
sufficient detail on relevant risks and are inconsistent in scope and content from
one report to another. Without detailed and consistent site visit data, FLH is
unable to make meaningful comparisons between tribes regarding their levels of
compliance with Federal requirements. Comparisons would allow FLH to focus
attention on high-risk tribes and identify emerging risks across the program.

FLH’s site visits and risk management activities have not been sufficient to
consistently ensure compliance with TTP requirements. In some instances, tribal
oversight of contracting activities did not meet Federal standards for
administrating and monitoring construction projects. Four of the 10 tribes we
visited made payments to contractors without first comparing the contractor’s
payment request to the tribes’ independent documentation and assessments of
work completed. In addition, one tribe approved a change order valued at over
$100,000 without an independent cost analysis to support additional work under
the contract. TTP standard operating procedures require a cost analysis for change
orders when there is a lack of competition. We also found that some tribes’
projects did not have health and safety certifications as required under the tribal
program agreements. Moreover, two tribes in our sample were not aware of the
requirement to provide FLH with as-built documents, which are plans revised to
include all changes made to the original design, once a project is completed.

Insufficient information limits FLH’s ability to appropriately target new and
existing staff resources to effectively meet program goals. Adequate information
on tribal transportation programs is important because FLH’s workload continues
to increase as it accepts new tribes. Five tribes have entered into agreements with
FLH since May of 2012. In response to these additional demands on program
staff, FLH recently completed a workforce assessment that resulted in the approval
of four additional program staff.

TTP Lacks an Updated Regulation and Comprehensive Guidance for
Program Implementation
The TTP is governed by an outdated regulation that does not reflect FLH’s current
role and responsibilities in the program. FLH and BIA are jointly responsible for
updating the TTP regulation but have not issued a new regulation reflecting
significant legislative changes. The last TTP regulation was published in 2004.
Since that time, Congress has passed two significant pieces of legislation
impacting the program: SAFETEA-LU in 2005 and MAP-21 in 2012. SAFETEA-
LU authorized FLH to enter into program agreements with tribes, but this
important change—the basis of FLH’s current program—is not reflected in the
TTP regulation. The MAP-21 transportation authorization, passed last July,
amended the formula that determines tribal funding.
                                                                                                                  9


FLH and BIA have been in the process of updating their regulation since the
passage of MAP-21. FLH and BIA have developed draft regulatory language and
held consultation meetings with tribal stakeholders to discuss program policies. 9
According to FLH officials, they deferred updating the regulation due to the
expiration of SAFETEA-LU in 2009 and the anticipation of a new transportation
authorization that could have significant impact on the program. However, this did
not occur until 2012. While we understand the complexities of issuing regulations
that impact sovereign tribal governments, a new program regulation is critical to
define the Agencies’ roles and responsibilities and ensure the efficient and
effective management of the program.

Some aspects of both the TTP regulation and FLH’s program guidance are
unclear, particularly regarding allowable uses of TTP funds. The TTP regulation
specifies many of the allowable uses of TTP funds, such as administrative
expenses. However, neither the regulation nor FLH guidance specifies what types
of legal expenses can be paid for with TTP funds. Consequently, one tribe used
program funding for legal fees to defend against allegations made by another
Federal agency, which is not allowable under Federal grant requirements. 10
Moreover, FLH guidance on allowable equipment purchases does not clearly align
with the TTP regulation. Specifically, the TTP regulation states that tribes can use
program funding to purchase equipment for maintenance activities, but FLH
guidance and the TTP regulation do not specify whether equipment purchases for
construction activities are allowable. As a result, the tribes in our sample had
different interpretations of eligible equipment purchases. Of the 10 tribes we
visited, 2 tribes bought equipment for construction, and 1 tribe stated that it did not
buy equipment because it was not sure if the expense was allowable.

In addition, FLH has not adequately defined what series of remedial actions it
could take for tribes not complying with TTP requirements. FLH’s only available
remedial actions are to suspend funding or terminate its agreement with a tribe
when serious violations occur. Even though some tribes in our sample did not
meet requirements related to program management and allowable uses of funds,
FLH’s remedial actions were determined on a case-by-case basis and the
individual judgment of program staff. In contrast to FLH, other Operating
Administrations have developed guidance for remedial actions, which is intended
to encourage recipients to comply with program requirements and properly
manage Federal funds. For example, the Federal Transit Administration’s (FTA)
guidance generally describes a continuum of remedial actions that FTA regional
offices can take for high-risk grantees. These actions include written notifications

9
  Executive Order 13175, Nov. 6, 2000, requires FLH and BIA to engage in regular consultation and collaboration with
tribal officials in the development of Federal policies that have tribal implications.
10
   Office of Management and Budget Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
June 9, 2004.
                                                                                                                  10


of noncompliance and phased restrictions on funds until corrective actions are
completed. Because TTP lacks a structured process for escalating remedial
actions, FLH cannot ensure it provides consistent and effective oversight to tribes
carrying out transportation projects.

Finally, FLH does not have clear guidance regarding Tribal Transportation
Improvement Programs, 5-year transportation project plans that tribes are required
to submit to FLH for review and approval. FLH’s reviews are intended to ensure
that proposed projects are eligible and financially constrained 11 by sufficient and
reasonably available resources. However, FLH guidance does not specify what
funding sources FLH considers to be reasonably available. As a result of unclear
guidance, tribes sometimes do not include sufficient project information for FLH
to determine risks in the tribes’ transportation projects and programs, and ensure
financial constraint. For example, FLH approved one plan without verifying the
availability of a $6-million discretionary grant to fund a project. Ultimately, the
tribe was never awarded the grant. FLH’s guidance also does not specify the
amount of detail tribes should provide on project schedule, scope, and funding.
One tribe’s approved plan included funding requests for 5 years of preliminary
engineering for two projects, which is unusual for projects of smaller scope and
duration typically found in the TTP program. The plan also does not include
sufficient information on construction timeframes and cost to support FLH’s
decision to approve the plan.

CONCLUSION
The Tribal Transportation Program is undergoing a significant transition as FLH
implements recent changes from MAP-21 and takes on oversight responsibility for
more tribes. Tribes are also assuming greater responsibilities for managing their
own transportation programs, in accordance with congressional intent. The
ultimate success of the evolving TTP depends on effective consultation, guidance,
and coordination between FLH and BIA. However, FLH can do more to
coordinate with BIA and move toward a data-driven, risk-based approach to tribal
program oversight. FLH can also improve the clarity and completeness of TTP
guidance to ensure that tribes fully understand and comply with Federal
requirements. By taking a more proactive approach with both BIA and the tribes,
and improving current processes, FLH can enhance its stewardship of billions of
dollars of Federal funding.




11
   FLH states that, under 23 CFR 450.104, the planning process must show that a tribe can implement its projects using
committed, available, or reasonably available revenue sources, with reasonable assurance that the federally supported
transportation system is being adequately operated and maintained.
                                                                                     11


RECOMMENDATIONS
We recommend that the Federal Highway Administrator:

1. Coordinate with BIA to update the Memorandum of Agreement and
   Stewardship Plan to reflect FLH’s role to directly assist tribes, and define
   coordination between FLH and BIA regional offices.

2. Create a centralized database to capture financial and status information for
   tribal transportation projects.

3. Develop a process that ensures sufficient consultation with BIA for tribes
   transitioning to FLH, and requires FLH to consistently assess tribal capabilities
   and associated risks in administering transportation programs.

4. Develop a process that ensures consistent and comprehensive reviews of tribal
   projects, including a standard site visit checklist of key risk areas for the tribes.

5. Coordinate with BIA to revise the TTP regulation to reflect FLH’s role to
   directly assist tribes and clarify the requirements for allowable uses of funds.

6. Design a series of remedial actions that FLH officials can take for tribes not
   meeting program requirements.

7. Revise Tribal Transportation Improvement Program guidance to ensure
   consistent definitions of key terminology, particularly financial constraint, and
   require tribes to provide more detailed information on project scope and
   funding sources.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FHWA with our draft report on August 20, 2013, and received its
formal response on October 8, 2013. FHWA’s response is included in its entirety
as an appendix to this report. In its response, FHWA fully concurred with all seven
of our recommendations and provided appropriate planned actions and
timeframes. We consider all seven recommendations resolved but open pending
completion of the planned actions.

ACTIONS REQUIRED
FHWA’s planned actions and timeframes for all seven recommendations are
responsive, and we consider the recommendations resolved but open pending
completion of the planned actions.
                                                                              12


We appreciate the courtesies and cooperation of Federal Lands Highways
representatives and tribal officials during this audit. If you have any questions
concerning this report, please call me at (202) 366-5630 or Gary Middleton,
Program Director, at (202) 366-0625.

                                       #

cc:   FHWA Audit Liaison, HCFM
      DOT Audit Liaison, M-1
                                                                                    13



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our work from May 2012 through August 2013 in accordance with
generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

Our audit assessed whether Federal Lands Highway (FLH) is effectively
coordinating with the Bureau of Indian Affairs (BIA) to administer and manage
the Tribal Transportation Program (TTP). We also assessed whether FLH is
providing adequate oversight of TTP projects under agreements with tribes.

To assess whether the FLH and BIA were coordinating effectively, we met with
officials at FLH, Department of Interior (DOI) BIA, DOI Office of Self
Governance (OSG), and DOI Office of Inspector General. We also collected and
analyzed relevant regulations, agreements, and documentation related to FLH and
BIA’s joint administration of the program. Additionally, we interviewed tribal
transportation officials and collected relevant documents to gain an understanding
of the tribes’ experiences regarding coordination between FLH and BIA.

To assess whether FLH is providing adequate oversight of projects contracted
directly with tribes, we interviewed officials from FLH, BIA, and tribal
governments. We examined TTP program regulations, policies and procedures as
well as other standards, such as Government Accountability Office (GAO)
Standards for Internal Control. We also visited the Western Federal Lands Office;
attended 2 tribal consultations held by FLH and BIA; and conducted site visits to
10 statistically selected tribal entities, including reservations, tribal lands, and an
Alaska Native Village Consortium. During the site visits with the tribes, we
conducted interviews and reviewed program and project documentation to gain an
understanding of program and project management practices across the sample of
tribes. We developed a standard checklist based on Federal requirements and
reviewed tribal records to assess the tribes’ management of their transportation
programs. Similarly, we conducted interviews with FLH and reviewed program
and project documentation, using a similar methodology as used with the tribes.
We assessed FLH’s oversight of these programs by examining specific program
and project records, such as documents required in the program agreement.

To review tribal project controls, we selected a statistical sample from data we
received from FLH in two stages. For Stage 1, we stratified the universe of
63 tribes—that had program agreements with FLH and at least one active or
completed construction project—into two strata: (1) Alaska tribes and (2) all other


Exhibit A. Scope and Methodology
                                                                                  14


tribes. For the purposes of this report, the term “tribe” includes individual tribes,
Alaska Native Villages, and consortiums of tribal entities. We then selected 2 out
of 31 tribes from Stratum 1, and 8 out of 32 tribes from Stratum 2, for a total of
10 out of 63 tribes. The 10 tribes were selected with probability proportional to the
amount of funding they received in fiscal year 2011. The 10 tribes selected had
received $40 million in funding, which was 47 percent of the $86 million in our
Stage 1 universe for all 63 tribes. For Stage 2, we stratified projects by tribe and
type of funding: (1) ARRA and (2) non-ARRA. We selected a total of 42 out of
87 projects where the probability of selection was proportional to a project’s
estimated construction cost. These 42 projects had a total estimated construction
cost of $229 million, which was 78 percent of the $294 million in our Stage 2
universe for all 87 projects. Because we were not provided with accurate data from
FLH, our review of projects changed in many instances when we arrived on site.
We conducted site visits at tribal locations to review projects within our sample.
During two tribal site visits, we added projects to replace those that did not meet
our criteria. The locations for our site visits were based on project activity as
indicated by the FLH and confirmed by the tribes, and we did not make
projections based on site visits.




Exhibit A. Scope and Methodology
                                                              15



EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

Gary Middleton                          Program Director

Jay Swartzbaugh                         Project Manager

Paul D. McBride                         Senior Analyst

Brian Chapman                           Senior Analyst

Emily Norton                            Analyst

Anne-Marie Joseph                       Senior Engineer

Fritz Swartzbaugh                       Associate Counsel

Petra Swartzlander                      Senior Statistician

Megha Joshipura                         Statistician

Christina Lee                           Writer-Editor




Exhibit B. Major Contributors to This Report
                                                                                                       16



         APPENDIX. AGENCY COMMENTS


                                                    Memorandum
Subject: INFORMATION: Federal Highway                                             Date: October 08, 2013
         Administration (FHWA) Response to Office of
         Inspector General (OIG) Draft Report on the Tribal
         Transportation Program (12U3004M000)


 From: Victor M. Mendez                                                           In Reply Refer To:
       Administrator                                                              HCFM-1

    To: Calvin L. Scovel III
        Inspector General (J-1)

         The Tribal Transportation Program (TTP) provides funding for transportation planning,
         research, maintenance, engineering, rehabilitation, and construction of roads and bridges that
         provide access to, within, or adjacent to tribal lands. As a result, TTP funding provides better
         and safer access to basic community services, such as schools, work, and medical and
         emergency services, for the 566 federally recognized sovereign tribal governments across the
         country, enhancing quality of life in the mostly rural environments of Indian country. The
         TTP also promotes access to tribal lands for commerce and economic growth within tribal
         communities. More than 8 billion vehicle miles are traveled annually on the TTP system,
         even though it is among the most rudimentary of any transportation network in the United
         States with more than 60 percent of the system unpaved.

         The TTP promotes a coordinated approach to highway construction in Indian country on
         roads owned by the Department of the Interior’s (DOI) Bureau of Indian Affairs (BIA) or
         sovereign tribal governments, and other roads owned by States, counties, or localities that
         provide access to or within Indian communities. Since DOI is the lead Agency for updating
         TTP regulations, the BIA is a critical partner to ensure the successful delivery of the TTP as
         Congress expands FHWA’s role with each successive surface transportation authorization act.

         One of the changes Congress has made to FHWA’s role in the program is that Tribes now
         have the option to carry out their transportation program directly through FHWA. The number
         of Tribes opting to work directly with FHWA has increased from the initial 4 in 2006, to the
         current number of 117 Tribes. In recognition of tribal sovereignty and the issues that some of
         the Tribes experienced with the BIA regions in the past, FHWA has never demanded
         timeframes for tribal requests to transfer their TTP to FHWA. Instead, FHWA works with the
         Tribes and BIA to make the transfer as seamless as possible at any time during the Fiscal Year.
         In many cases, these funds are the only transportation funds that a Tribe receives, and FHWA




         Appendix. Agency Comments
                                                                                                17


focuses on providing the technical assistance necessary to make the Tribes successful.

In response to the increasing number of participating Tribes each year, FHWA proactively
carries out both tribal risk and workforce analyses in order to identify the capacity of each
Tribe and the impact that each Tribe has on the FHWA tribal transportation team workload.
When identified, the FHWA Federal Lands Divisions and Federal-aid Division offices also
provide technical assistance and direct on-site support to the Tribes and the team.

The FHWA is committed to supporting the Tribes to help ensure the successful delivery of
the TTP. The delivery of a successful TTP is challenging as the number of Tribes working
directly with FHWA continues to increase along with the varying size and technical capacity
of each tribe, while recognizing the unique factors required by tribal sovereignty. The
FHWA’s revised process for taking on additional tribes, our continued work with BIA to
update the TTP regulations, and our expanded stewardship and oversight approach will help
FHWA address the OIG’s recommendations and provide comprehensive oversight of the
TTP.

OIG Recommendations and FHWA Responses

Recommendation 1: Coordinate with BIA to update the Memorandum of Agreement and
Stewardship Plan to reflect the FHWA Federal Lands Highway’s (FLH) role to directly assist
Tribes, and define coordination between FLH and BIA regional offices.

Response: Concur. The FLH and the BIA have agreed to jointly develop a National
Business Plan (NBP) to identify the roles and responsibilities of each Agency and FHWA’s
increased role in the direct assistance to Tribes. The NBP will replace the Stewardship Plan
to help further the BIA and FHWA as true partners and provide a uniform and consistent
delivery and oversight of the program for the Tribes; thereby leading to a streamlined
approach through resource sharing and eliminating redundant activities between our
Agencies. The FLH and BIA leadership have approved the development of the NBP, and a
joint-agency team effort for development is underway. The expected completion date for this
activity is April 2014. The new NBP will address FLH’s role to directly assist Tribes and
define the roles and responsibilities of both BIA and FLH.

Recommendation 2: Create a centralized database to capture financial and status
information for tribal transportation projects.

Response: Concur. With the additional Tribes opting to work directly with FHWA, the
amount of data FHWA collects and uses has rapidly expanded. The ability to access a
centralized data base will only strengthen the uniformity in program delivery and oversight.
The FHWA has entered into a formal agreement with the Volpe Center to review the data that
is currently collected, review the existing systems at FHWA, and recommend a course of
action for our use. The FHWA intends to make the resulting database available to all TTP
team members and to the Regional Road Engineers of the BIA. We expect the database to be




Appendix. Agency Comments
                                                                                              18


in place by September 2014. Upon full implementation, these items will fulfill the intent of
this recommendation.

Recommendation 3: Develop a process that ensures sufficient consultation with BIA for
Tribes transitioning to FLH and requires FLH to consistently assess tribal capabilities and
associated risks in administering transportation programs.

Response: Concur. The FHWA has developed a formal process to bring Tribes onboard
that includes early communication with BIA to discuss transitioning a Tribe and completion
of a tribal risk assessment. This process will help FHWA to understand the capacity of the
transitioning Tribe regarding transportation and determine what level of technical assistance
and oversight FHWA will need to provide. Overall, the process will provide improved
consistency in the risk and workforce assessments that are implemented. Upon full
implementation starting in October 2013, the policy/process will fulfill the intent of this
recommendation.

Recommendation 4: Develop a process that ensures consistent and comprehensive reviews
of tribal projects, including a standard site visit checklist of key risk areas for the Tribes.

Response: Concur. The FHWA has carried out site visits and formal program reviews of the
Tribes since 2006, when the first Tribes opted to begin working directly with FHWA. Over
the years and with input from other FHWA offices, the formal program reviews have become
more risk-based, and they continue to emphasize overall program and project management.
With regard to project reviews, FHWA has developed a draft, detailed list of the activities
and documents that we will check and verify during future tribal project site visits. We
expect to have this list in place beginning in Fiscal Year 2014. In addition, the updated TTP
Program Guide will include this checklist so that all Tribes will have a reference source that
describes the intentions and expectations of site visits by FHWA and BIA. In April 2014, the
FHWA expects to have the updated Program Guide finalized and in place. Upon full
implementation, these items will fulfill the intent of this recommendation.

Recommendation 5: Coordinate with BIA to revise the TTP regulation to reflect FLH’s role
to directly assist Tribes and clarify the requirements for allowable uses of funds.

Response: Concur. The DOI is in the process of updating the TTP regulations, Part 170 of
Title 25 of the Code of Federal Regulations (25 CFR 170), and FHWA will coordinate with
BIA as part of the rulemaking process. This update reflects the changes to the TTP brought
about by the passage of MAP-21, and updated processes and procedures that have been in
place since the original publication of 25 CFR 170 in 2004. The DOI developed and
published a draft update in the Federal Register this past spring with a request for comments
and held several formal consultations on the draft update. The DOI received numerous tribal
comments and is currently considering those comments in the next step of the process, which
is to formally develop a Notice of Proposed Rulemaking (NPRM).




Appendix. Agency Comments
                                                                                             19


The DOI is the lead agency for this regulation. After publication of the NPRM, expected in
fall 2014, DOI will hold additional tribal consultation meetings around the country. After the
completion of the formal NPRM process, DOI will again consider comments and a final rule
may be developed and published. Due to the timeframes involved in the NPRM and
consultation processes, DOI hopes to take the next regulatory action by the end of Fiscal Year
2014. Publication of the new regulation will fulfill the intent of this recommendation.

Recommendation 6: Design a series of remedial actions that FLH officials can take for
Tribes not meeting program requirements.

Response: Concur. The TTP Delivery Guide will identify remedial actions, and the Agency
will discuss these actions during the annual face to face meeting and as part of the new
process to bring Tribes onboard as mentioned above. The remedial actions will identify
measures that FLH will take in response to a Tribe’s non-responsiveness to issues identified
or reporting that is required by the Program Funding Agreement, single audit findings, or
program reviews. The FLH will notify BIA and request assistance when necessary. We
expect the NBP and updated Program Delivery Guide to be complete and in use by April
2014. The remedial action plan in the Program Delivery Guide and future Program Funding
Agreements, and the discussion of these remedial steps as part of the process to bring the
Tribes onboard, will fulfill the intent of this recommendation.

Recommendation 7: Revise Tribal Transportation Improvement Program guidance to
ensure consistent definitions of key terminology, particularly financial constraint, and require
Tribes to provide more detailed information on project scope and funding sources.

Response: Concur. The FHWA’s Transportation Improvement Program (TIP) forms are
generated by the Tribes to reflect the tribal projects and activities, and the comment box on
the TIP is used by the Tribes to provide additional project and activity information, such as
additional funding sources. Since the law states that all projects and activities must be on an
approved TTP TIP, a tribe uses the forms to identify everything it wishes to spend TTP funds.
The FHWA will work more closely with the Tribes to help them provide useful and accurate
information on the TTP TIPs. We will also identify the description and instructions related to
this document, including terminology, in the update of the regulation and program delivery
guidance. This process will take place during the Fiscal Year 2014 updates to the TTP TIPs
and will fulfill the intent of this recommendation.

                                           *****


The FHWA recognizes the importance of the TTP program and is committed to work with
BIA to deliver transportation projects that provide multimodal access to basic community
services for the 566 federally recognized sovereign tribal governments. The results from this
program will enhance livable communities and the quality of life of tribal residents by




Appendix. Agency Comments
                                                                                       20


providing safer all weather access to schools and healthcare facilities and improved
opportunities for economic development on tribal lands.

The FHWA appreciates the opportunity to respond to the OIG draft report. If you have any
questions or comments regarding this response, please contact Joyce Curtis, Associate
Administrator for Federal Lands, at (202) 366-9472.




Appendix. Agency Comments
